Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services 
Grant to the Brea Regional Consortium, Brea, California
GR-90-02-002
October 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Brea Regional Consortium (Consortium).  The purpose of the grant is to enhance community policing.  The Consortium was awarded a total of $6,664,747 to redeploy the equivalent of 266.6 existing full-time officers from administrative duties to community policing.

We reviewed the Consortium's compliance with four essential grant conditions.  We found the Consortium to be in compliance with our tests for source of local matching funds and reimbursement requests.  The initial review found that the Consortium member police departments had not developed adequate redeployment tracking plans delineating how they will track the redeployment of 266.6 FTEs into Community Policing Activities.  Subsequent to this report issuance in draft, the Consortium submitted a redeployment tracking plan to the COPS Office.  The COPS office determined that this plan was adequate.  Because the technology was not operational, we could not determine if the MORE 98 technology would enhance community-policing activities. 

These items are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope and methodology appear in Appendix I.